Business Consulting Services




              Smithsonian Institution
              Office of the Inspector General


              Project Management Review
              Patent Office Building
              Renovation Project




 Presentation Title | Confidential   | 31-Mar-03 |   © Copyright IBM Corporation 2002
              Business Consulting Services



Table of Contents
                                                                    Page
    I. Executive Summary                                               4
       A. Engagement Objectives and Scope                             4
       B. Report Structure                                            5
       C. POB Project Overview                                        7
       D. Findings and Recommendations                                8


    II. Project Status                                                11
       A. Financial                                                   11
       B. Schedule                                                    12


    III. Project Management                                           13
       A. Project Planning                                            13
       B. Cost Control                                                15
       C. Schedule Control                                            23
       D. Client Management                                           25
       E. Design Reviews                                              26
       F. Change Order Management                                     27
       G. Invoice and Fund Control                                    29
       H. Filing and Document Control                                 30
       I. Quality Assurance/Quality Control Program                   31


    IV. Organization                                                  32
       A. Project Resources                                           32
       B. Policies and Procedures                                     34

2               Presentation Title | Confidential   | 31-Mar-03 |          © Copyright IBM Corporation 2002
              Business Consulting Services



Table of Contents (continued)
                                                                    Page
    V. Project Accounting and Technology                            35
       A. Cost Tracking                                             35
       B. Management Reporting                                      38
       C. Web-based Collaboration Tools                             46


    VII. Action Plan                                                49
       A. Summary of Action Steps                                   49


    VI. Appendices                                                  51
       A. Documents Reviewed                                        51
       B. Interviews Conducted                                      52




3               Presentation Title | Confidential   | 31-Mar-03 |          © Copyright IBM Corporation 2002
                  Business Consulting Services

I. Executive Summary -
A. Engagement Objectives and Scope

The Office of the Inspector General (OIG) retained IBM Business Consulting Services (BCS) to conduct
an independent project management review of the Patent Office Building (POB) renovation project.

BCS was asked to perform this project management assessment with the goal of:
    §   Determining whether current project management controls are adequate to provide reasonable assurances that
        the POB project will be completed on time and within the established budget;
    §   Identifying potential project controls deficiencies contributing to project risks; and,
    §   Formulating specific suggestions for improved project management practices based upon current industry best
        practices.




4                    Presentation Title | Confidential   | 31-Mar-03 |                                     © Copyright IBM Corporation 2002
                  Business Consulting Services

I. Executive Summary –
B. Report Structure

The areas of investigation are organized into the three major components of capital program management.

Best practice capital program delivery has efficient project management processes, well designed organizational structures,
effective project accounting, leading technology, and performance-based management reporting.




              Project Management                                                     Organization
                      Project Planning                                              Project Resources
                         Cost Control                                              Policies and Procedures
                     Schedule Control
                    Client Management
                      Design Reviews
                                                                         Project Accounting and Technology
               Change Order Management
                       Invoice Control                                                Cost Tracking
               Filing and Document Control                                       Management Reporting
                      QA/QC Program                                            Web-based Collaboration Tools




5                    Presentation Title | Confidential   | 31-Mar-03 |                                         © Copyright IBM Corporation 2002
                     Business Consulting Services

I. Executive Summary –
B. Report Structure (continued)
The assessment of each topic area consists of Findings, Suggested Improvements / Best Practices, and
Recommended Action Steps.

The characteristics of these sections are outlined below:
    §   Findings. Findings consist of general comments and themes gathered from over fifteen interviews and a review of over
        twenty program documents.
    §   Suggested Improvements/Best Practices. Based upon the findings from the interviews, document review and industry
        experience, suggested improvements are outlined for the management of the POB project or for future similar projects.
        Where applicable to explain an improvement, templates and best practice examples are included.
    §   Recommended Action Steps. From the suggestions, specific potential action steps are outlined for the Smithsonian to
        consider. The potential action steps are assessed according to two criteria –impact on the management of the POB or similar
        project, and the level of necessary resources to implement.
        §   High Priority – High Impact/ Low Resources. The best
                                                                           High
            value action steps, these have high potential impact on
            overall program management, but do not require




                                                                           Impact on Program
            abundant resources to implement.                                                   High Priority    Core Challenge
        §   Quick Hits – Low Impact/Low Resources. Actions that




                                                                              Management
            take limited time, limited senior management
            involvement, and limited resources to implement, but
            singularly have limited impact on program management.
        §   Core Challenge – High Impact/High Resources. Action
            steps that contribute greatly to improved program                                   Quick Hit       Low Priority
            management, but require significant resource investment
            and senior management involvement.
        §   Low Priority – Low Impact/High Resources. The least
            valuable action steps based upon impact on program
            management and level of resources to implement.                  Low                    Level of Resources            High

6                      Presentation Title | Confidential   | 31-Mar-03 |                                         © Copyright IBM Corporation 2002
                    Business Consulting Services

I. Executive Summary –
C. POB Project Overview
The Patent Office Building renovation project includes the repair or replacement of electrical and mechanical
equipment, air distribution and control systems, exterior masonry, windows, elevators, and interior finishes.

    § The Patent Office Building is a National Historic Landmark. Construction of the 332,000 square-foot Patent Office Building
      was begun in 1836 and was completed in 1867. The building was converted to a museum in 1964. The Smithsonian
      American Art Museum and the National Portrait Gallery are housed in the building.
    § The Patent Office Building project has been the subject of review by the National Academy of Public Administration for the
      U.S. Congress and as part of the budget process by the Office of Management and Budget.
    § The Patent Office Building Project is part of the Repair, Restoration and Alterations Facilities Program (RR&A).


    Project        § The POB project, supported by a detailed Master Physical Plant Renewal Study, includes total restoration of
    Scope            the exterior masonry (including the windows), total interior historic renovation, and repair/replacement of
                     electrical and mechanical equipment, air distribution and control systems that have exceeded their useful
                     life and fail to comply with current codes and standards. This work is being managed by the Office of
                     Facilities Engineering and Operations (OFEO).

    Project        § The POB project has a budget of $166 million. In addition to the construction costs, this budget includes
    Budget           soft costs and the relocation costs for the staff and the art collections.
                   § This figure does not include the planned courtyard enclosure. The trust-funded enclosure project has not
                     yet been designed and estimated and has not been officially authorized. The POB project budget also does
                     not include the approximately $9 million roof repair project completed in 2000.

    Current        § The project is funded with federal funds under the RR&A program.
    Funding        § The project has received $48.6 million through Congress appropriations for the period FY 1996-2002.

    Schedule       § Construction activities are scheduled to be complete by the end of 2005 and the building is to be reopened
                     to the public in July 2006.


7                      Presentation Title | Confidential   | 31-Mar-03 |                                        © Copyright IBM Corporation 2002
                  Business Consulting Services

I. Executive Summary –
D. Findings and Recommendations

OFEO’s project management controls for the POB project are generally effective; however, there exists both
cost and project schedule risk exposures to the Smithsonian.

Financial Status
  § Based upon appropriated and obligated funding, the POB project is well underway. Through FY 2002, $48.6 M of the total
    expected $166 M in federal funding has been appropriated and obligated, representing approximately 30% of the total project
    budget.
Schedule Status
  § The POB project schedule indicates that all renovation activities, including museum exhibit move-in, are to be completed for a
    July 2006 re-opening. The POB project schedule is contingent upon receiving 100% of the requested annual federal funding
    outlined in the OMB 300 submittal.

The assessment of the management of the POB project identified areas of potential risk and outlined general
areas of improvement.

Project Management
 § Even with adequate project controls in place, numerous museum requested changes throughout the planning and design
   phases of the POB project have resulted in redesign efforts that have extended the project schedule and increased the
   estimated costs.
 § While the POB project now has a firm baseline budget from which project performance can be monitored, there is limited
   management of projected “forecast-to-complete” costs. As a result, there is risk that without changes in project scope and/or
   increased financial oversight the POB project may exceed the current project budget of $166 M.
 § There is also risk that without receiving 100% of the requested annual federal funding as outlined in the OMB 300, that the
   projected July 2006 re-opening date may be unattainable. Additionally, there is limited management of a master project
   schedule within OFEO or the Smithsonian that coordinates construction activities and critical non-construction activities
   necessary to meet the project July 2006 re-opening date.



8                    Presentation Title | Confidential   | 31-Mar-03 |                                         © Copyright IBM Corporation 2002
                  Business Consulting Services

I. Executive Summary –
D. Findings and Recommendations (continued)

Project Management (continued)
 § OFEO’s project management team is generally responsive to the construction project requirements of the National Portrait
   Gallery and the American Art Museum; however, within the Smithsonian there is limited overarching project management of
   non-construction project requirements that take into account other Smithsonian constituencies.
 § Project stakeholders are provided the opportunity to review the project documents through a formal design review process
   known as the SD 410 process.
 § There are many key elements of a solid change order review process in place within OFEO; however, the process may
   benefit from an ongoing construction audit program.
 § The invoice and fund control processes are effectively managed by OFEO and O-Con personnel.
 § The existing project filing system is efficient and the Smithsonian is considering using an electronic system to enhance the
   filing and document control process.
 § The QA/QC program contains good quality control elements such as contractor’s quality control plan submitted prior to
   starting construction and regular on-site inspections.
Organization
 § While the framework for project management within OFEO is considered a best practice, planned project management
   staffing levels for the POB may be inadequate to fully execute the oversight activities of the remaining work.
 § The recently published Facilities Project Management Handbook will serve as an excellent source of information to project
   participants on project roles, approval processes, and performance measurement.
Project Accounting and Technology
 § The existing PFITS cost accounting system is effective in tracking the POB project execution costs managed by OFEO.
   Further creation of standardized reports and the planned integration of disparate budget and execution systems will improve
   overall project management for the POB project and future projects.
 § There are limited financial management reports that highlight the health of the POB project in terms of performance metrics,
   planned vs. actual costs, and schedule updates. Further investigation into key performance indicators and project reporting
   templates will benefit the management of the POB project.



9                    Presentation Title | Confidential   | 31-Mar-03 |                                        © Copyright IBM Corporation 2002
                  Business Consulting Services

I. Executive Summary –
D. Findings and Recommendations (continued)
 Potential action steps addressing the suggested improvements of the report have been outlined for the
 Smithsonian’s consideration. These action steps have been rated according to their potential impact on
 program management and the perceived level of resources to implement.

 “High Priority” – High Impact/ Low Resources
 Cost Control. Monitor contingency usage against percent completion for cost control performance.
 Schedule Control. Increase construction oversight of schedule reporting for contract compliance.
 Client Management. Establish a higher level of project oversight to ensure all Smithsonian project issues are addressed.
 Project Resources. Evaluate the current relationships between planned capital expenditures and operating budget to identify
 project management resource requirements over the next five years.
 Policies and Procedures. Continue to monitor the development of the new Facilities Project Management Handbook and
 ensure it is implemented on the remainder of the POB project.
 Management Reporting. Study project management reporting requirements.
 Collaboration Tools. Study the benefits of using web-based collaboration tools.

 “Quick Hits” – Low Impact/ Low Resources
 Cost Control. Establish “audit trail” documentation for all changes to the baseline budget.
 Cost Control. Establish a standardized format for cost estimates that is inclusive of all known costs.
 Cost Control. Manage separate budgets and contingencies for each individual project contract.
 Schedule Control. Increase the responsibility of the contractor in regard to schedule reporting.
 Client Management. Ensure that the A/E receive instructions only from OFEO.
 Change Order Management. Establish a construction audit program tailored to the specific needs of construction projects.

 “Core Challenge” – High Impact/ High Resources
 Cost Tracking. Study cost tracking requirements of future programs and the ability of existing systems to meet these
 requirements.
 Management Reporting. Develop Earned Value metrics to aid in determining the schedule and cost positions of projects.

 “Low Priority” – Low Impact/ High Resources - None

10                  Presentation Title | Confidential   | 31-Mar-03 |                                       © Copyright IBM Corporation 2002
                      Business Consulting Services

II. Project Status –
A. Financial
Based upon appropriated and obligated funding, the POB project is well underway. Through FY 2002, $48.6M of
the total expected $166M in federal funding has been appropriated and obligated, representing approximately
30% of the total project budget.
§ The POB project’s current budget is $166M. This figure does not include the planned courtyard enclosure enclosure. The
  trust-funded enclosure project has not yet been designed and estimated and has not been officially authorized. The POB
  project budget also does not include the approximately $9M roof repair project completed in 2000.
§ The POB project’s current budget of $166 M is supported by the latest OMB 300 submittal. The OMB 300 submittal
  outlines the required annual federal funding requirements to meet the expected completion date of July 2006. It also itemizes
  the total $166 M budget request by major project cost category. The OMB 300 does not , however, itemize annual funding
  requirements by major project cost category.
 Figure 1 – OMB Budget by Major Project Cost Category                       Figure 2 – Obligated and Planned Annual Funding Requirements
 § This figure illustrates the breakdown of the $166 M project              § This figure illustrates that based upon obligated funding through
    budget by the major project cost categories.                               FY02 the POB project is approximately 30% complete.

                                          FY04 Budget to OMB                                      Obligated         Planned          Total Funding
     Major Project Cost Categories               ($M)                       Fiscal Year          Funding ($M)     Funding ($M)            ($M)

     Planning/Design                                          $14.7         FY 96-00                 $16.6                                $16.6
     Construction                                            $123.5         FY 01                    $17.0                                $17.0
     Contingency (12.5%)                                      $15.5         FY 02                    $15.0                                $15.0
     Construction Management (8%)                             $11.0         FY 03                                     $25.0               $25.0
     Building Commissioning (1%)                               $1.3         FY 04                                     $48.0               $48.0
                                                                            FY 05                                     $44.4               $44.4

     Totals                                                  $166.0         Totals                   $48.6            $117.4             $166.0

                                                                            Percent of Budget        29%               71%                100%


§ During this assessment, Federal FY03 funding for the POB project of $25.0M was approved. The remaining planned
  federal funding for the POB project is now $92.4M - $48.0M in FY04 and and $44.4M in FY05


11                      Presentation Title | Confidential   | 31-Mar-03 |                                                     © Copyright IBM Corporation 2002
                    Business Consulting Services

II. Project Status –
B. Schedule
The POB project schedule indicates that all renovation activities, including museum exhibit move-in, are to be
completed for a July 2006 re-opening.

§ The POB project schedule is contingent upon receiving 100% of the requested annual federal funding outlined in the
  OMB 300 document. Any annual appropriation over the remaining years of the project less than the Smithsonian’s requested
  amount could impact the project schedule and the project cost.
§ The POB project is being procured through three construction contracts. The construction of the POB project has been
  separated into three distinct construction contracts – Demolition/ Hazmat Abatement, Exterior Stone and Window Restoration,
  and the Physical Plant Renewal (PPR).
§ Design for all three contracts has been completed.


     Figure 3 – POB Project Schedule


     § This figure illustrates the planned and
       actual schedules for the major project
       activities.




12                     Presentation Title | Confidential   | 31-Mar-03 |                                  © Copyright IBM Corporation 2002
                    Business Consulting Services

III. Project Management –
A. Project Planning
Even with adequate project controls in place, numerous museum requested changes throughout the planning
and design phases of the POB project have resulted in redesign efforts and have extended the project
schedule and increased the estimated costs.
Findings
§    Project planning and project approvals follow a proscribed process. The required project and project change approvals
     from various committees – such as the oversight committee and the capital planning board - establish a high level of project
     control.
§    Project control processes and procedures are adequate and in place to oversee the management of the POB project.
     However, individual project decisions, both past and future, while made within the framework of the project planning and project
     approval processes, have significant impact on the successful delivery of the POB project in regard to schedule and cost.
§    The POB project has experienced significant “ scope creep” mainly driven by the museum tenants. System failures and
     non-compliance with building codes endangering public safety provided the support for the initial POB project scope. Further
     investigation into how systems were to be replaced within an historic structure resulted in several programmatic changes during
     the design process. While changes such as this are expected to be made during the design schematic phase, many scope
     changes, mainly driven by the museums, occurred late in the design development process. Below are two of the scope changes
     that occurred after Hartman-Cox Architects submitted the original design in September 1997 that dramatically impacted the
     project scope and project schedule:
       §    In April 1998, management decided to eliminate all offices and non exhibition space, to permanently relocate the Archive
            of American Art, to design the renovation in a vacant building, and to include a Central Plant. As a result the program was
            revised and a new design was developed.
       §    Before the submission of the final drawings in May 2000, senior Smithsonian leadership expressed interest in exploring an
            enclosure for the courtyard and the reconstruction of the entry steps to the South Portico. A month later the architects
            were asked to develop alternatives for a 350 seat auditorium below the courtyard as part of the Physical Plant Renewal
            (PPR) project. As a result of the new PPR programmatic elements, a notice to proceed was issued on February 2001 to
            redesign the PPR project to incorporate a below-grade courtyard auditorium and allow for the future courtyard enclosure.
§    The POB project has experiences delays and cost impacts. Major museum requested changes during the design phase of
     the POB project have necessitated rework and additional A/E services, which both have delayed the project and increased the
     cost of the project.



13                    Presentation Title | Confidential   | 31-Mar-03 |                                          © Copyright IBM Corporation 2002
                   Business Consulting Services

III. Project Management –
A. Project Planning (continued)
Suggested Improvements/ Best Practices
§    Recognize that the ability to control project costs and                                     Figure 4 – Ability to Influence Cost and Schedule
     schedule decrease dramatically as the project moves
                                                                                                 § This figure illustrates the ability to control project
     forward.                                                                                      costs and schedule decreases dramatically as the
§    Define criteria outlining what constitutes schematic                                          project moves forward through the project
                                                                                                   lifecycle.
     design, design development and construction
     document completion. Ensure that design moves from
     one phase to another with the full understanding of the
     project stakeholders, reducing the risk of programming
     changes later in the design process and increasing the
     confidence level of intermediate cost estimates.                                              Planning




                                                                          Ability to influence
                                                                           Cost/Schedule
                                                                                                    Programming

                                                                                                             Design
Recommended Action Steps                                                                                           Bid / Procurement
§    There are no specific action steps to consider.
                                                                                                                               Construction
                                                                                                                                             Close out


                                                                                                                         Time




14                    Presentation Title | Confidential   | 31-Mar-03 |                                                              © Copyright IBM Corporation 2002
                   Business Consulting Services

III. Project Management –
B. Cost Control
While the POB project now has a firm baseline budget from which project performance can be monitored, there
is limited management of projected “forecast-to-complete” costs and contingency funds. As a result, there is
risk that without changes in project scope and/or increased financial oversight the POB project may exceed the
current project budget of $166 M.


Cost Control findings are organized into three areas:
§    Capital Budgeting
§    Cost Estimating
§    Contingency Management


Findings - Capital Budgeting
§    There does not appear to be a “baseline project budget”. While the overall project budget is now established, the budget
     components do not appear to be frozen, but rather updated during the life of the project, making internal control against a
     baseline difficult to achieve.
§    There is limited background information supporting the most recent request to Congress for federal funding. While an
     official budget (Exhibit 300) has been produced for Congress appropriations, there is little supporting documentation for the
     estimated construction costs.
§    Recent project budgets in the Monthly Issues Report exceed $166 M. Recent project budgets in the Monthly Issues
     Report indicate that obligated funding through FY 02 plus the estimated remaining balance for FY 03-05 exceeds $166 M.
     Within this reported project budget, it appears that the bottom line project budget of $166 M has been kept constant since the
     Critical Assessment, with modifications at the line item level occurring with limited supporting documentation.




15                     Presentation Title | Confidential   | 31-Mar-03 |                                       © Copyright IBM Corporation 2002
                  Business Consulting Services

III. Project Management –
B. Cost Control (continued)
Suggested Improvements / Best Practices – Capital Budgeting
§    Develop and monitor budget performance against “baseline” budgets. The Smithsonian should consider maintaining
     a baseline budget, established when the project scope has stabilized, from which subsequent budget and project
     performance could be monitored. It should include all construction and non-construction activities.
§    Include more soft costs in project budgets. The Smithsonian should consider developing a procedure for budgeting soft
     costs to ensure that the budget comprises all project costs along with the construction costs. Soft costs are to be listed by
     categories and fixed budgeting percentages applied. Aside from A/E and CM costs, there can be additional costs for
     advertising, permitting, environmental, legal, PMO and other cost allocations.
§    Manage budget categories according to federal funding requests. The Smithsonian should consider developing an
     annual project budget in accordance with the major cost categories reported in the OMB 300 submittal.



Recommended Action Steps – Capital Budgeting
1.   Establish “audit trail” documentation for all changes to the baseline budget.
       §    While unforeseen or uncontrollable circumstances may arise and impact the project budget, any budget
            modification should be adequately documented and a full audit trail created showing all variances and line item
            transfers, allowing for reconciliation to the original project budget and detailing the use of design and construction
            contingency. Reconciliation reports should report both variances between Construction Manager estimates and
            check estimates, and variances from prior estimates. This level of documentation will require input from OFEO
            and the Museums.
       §    This is a “quick hit” – a low impact/low resource action.




16                   Presentation Title | Confidential   | 31-Mar-03 |                                           © Copyright IBM Corporation 2002
                    Business Consulting Services

III. Project Management –
B. Cost Control (continued)
Findings – Cost Estimating
§    There was limited cost reconciliation during the design phase of the POB project. While cost estimates were compiled
     during the design phase at major design milestones, there is limited documentation supporting that cost reconciliation was
     performed to ensure full explanation of variances and line item transfers. Although a cost variance analysis was performed for
     the PPR project at 100% submission between the two independent estimates, no reconciliation of the estimates developed at
     100% and 70% was performed. Full estimate reconciliation ensures a full understanding of the changes that have occurred
     such as scope changes or new funding requirements.
§    Format inconsistencies appear between estimates. Cost estimates produced by the same estimating firm have inconsistent
     cost breakdown structures, making reconciliation between estimates difficult to achieve.
§    Soft costs have not always been included in the project cost estimate, and soft costs assumptions are not clearly
     outlined.
§    For the POB project, there was limited in-house capabilities for cost estimating. Cost estimates for the POB project were
     generally performed by independent consultants; however, a cost engineering division within OFEO with four staff and one
     chief estimator is in the planning stages. An internal cost estimating division, ensuring a more integrated approach to cost
     estimating, is common among organizations with large capital programs.

Suggested Improvements/ Best Practices – Cost Estimating
§    Cost estimates should have standard formats and should be inclusive of all known costs. Cost estimates should capture
     all project costs including contingencies, soft costs, and other costs applied to the project, and should have a consistent format
     to ensure streamlined reconciliation process.
§    Cost estimates should be periodically updated. Cost estimates should be compiled during the design phase at regular
     intervals to ensure that the design documents are being developed in accordance with the approved budget. Cost estimates
     performed only at major design milestones may result in extensive redesign time if over-budget.
§    The Smithsonian should consider using “check” estimates and contractor price validation to ensure that cost
     estimates provided by the same cost management firm are adjusted to reflect current market conditions.
§    Changes to the cost estimates should be clearly documented. Documentation that outlines estimate reconciliations, why
     estimates have changed, and reporting variances from prior estimate should be maintained.




17                    Presentation Title | Confidential   | 31-Mar-03 |                                           © Copyright IBM Corporation 2002
                   Business Consulting Services

III. Project Management –
B. Cost Control (continued)
Recommended Action Steps – Cost Estimating
2. Establish a standardized format for cost estimates that is inclusive of all known costs.
      §    Cost estimate format should be standardized to allow for true comparison between estimates and to increase the level of
           confidence that all project costs are accounted for. In particular, soft costs should be determined along with the
           construction cost to serve as accurate depiction of total project costs. The responsibility for generating this list of all
           known costs does not reside solely in OFEO. Museum collaboration will be required to complete this action step.
      §    This is a “quick hit” – a low impact/low resource action.


Findings – Contingency Management
§    A FTC based upon actual obligations thru FY 02 and cost estimates for all remaining work compares reported budget
     figures to projected completion costs. The following slide shows a chart that details how the projected completion costs
     were derived based upon the following assumptions:
       §   OMB 300 budget figures are those in the Capital Asset Plan submitted to the Congress for the FY 2004 budget. Those
           figures are presented by main project cost categories, including design, construction, contingency, construction
           management, and commissioning
       §   The construction costs are made of five major elements: the Gross Demolition project, the Window Restoration project,
           the PPR project, Art Storage, and Cost of Completion
       §   The project costs to date are the obligations thru FY 02
       §   The forecast of the PPR project cost is based upon 100% Submission issued September 2002 and assumes no
           allowance for construction change orders and time extension
       §   The present evaluation of the projected completion costs is as of March 2003 and includes information provided by
           OFEO after the project management review was performed and for which IBM did not take action.




18                    Presentation Title | Confidential   | 31-Mar-03 |                                          © Copyright IBM Corporation 2002
                       Business Consulting Services

III. Project Management –
B. Cost Control (continued)
Findings – Contingency Management (continued)
Figure 5 - Forecast-to-Complete Analysis
§ The forecast-to-complete analysis below outlines the Total Project Costs before Contingency by major project cost category.
                                                    OMB 300                     Additional            Forecast-to-                      Percentage
                                                  Capital Asset Obligated Thru Foreacast-to-          Complete at                         Variance
 Major Project Cost Categories                        Plan           FY02       Complete              Completion     Variance       (Variance/OBM 300)
 Design Projects
 A/E design fees                                     $14,700,000       $14,277,393              $0     $14,277,393     $422,607                      2.9%
 Total Design Costs                                  $14,700,000       $14,277,393              $0     $14,277,393     $422,607                      2.9%

 Construction Projects
 Art Storage                                         $7,000,000         $9,602,510         $372,796     $9,975,306   ($2,975,306)                  -42.5%
 Demolition Contract                                 $7,300,000         $9,113,000         $192,000     $9,305,000   ($2,005,000)                  -27.5%
 Window Restoration Contract                         $5,700,000         $9,334,000         $300,000     $9,634,000   ($3,934,000)                  -69.0%
 PPR (interior renovation contract)                 $95,000,000           $159,000      $95,454,486    $95,613,486     ($613,486)                   -0.6%
 Cost to Complete (museum interior finishing)        $8,500,000                 $0       $7,870,370     $7,870,370      $629,630                     7.4%
 Total Construction Costs                          $123,500,000        $28,208,510     $104,189,652   $132,398,162   ($8,898,162)                    -7.2%

 Engineering during Construction                              $0          $241,612       $2,175,658     $2,417,270   ($2,417,270)
 Construction Management                             $11,000,000        $5,197,368       $2,475,839     $7,673,207    $3,326,793                    30.2%
 Total Construction Management Costs                 $11,000,000        $5,438,980       $4,651,497    $10,090,477      $909,523                     8.3%

 Building Commissioning                               $1,300,000                 $0             $0              $0    $1,300,000                   100.0%
 Total Building Commissioning Costs                   $1,300,000                 $0             $0              $0    $1,300,000                   100.0%

 Total Project Costs before Contingency            $150,500,000        $47,924,883     $108,841,149   $156,766,032   ($6,266,032)                    -4.2%

 Project Contingency                                 $15,500,000                 $0             $0              $0   $15,500,000                   100.0%

 Balance                                                        $0          $675,118            $0        $675,118     ($675,118)

 Total Project Costs                               $166,000,000        $48,600,001     $108,841,149   $157,441,150    $8,558,850                      5.2%

19                      Presentation Title | Confidential   | 31-Mar-03 |                                                          © Copyright IBM Corporation 2002
                    Business Consulting Services

III. Project Management –
B. Cost Control (continued)
Findings – Contingency Management
§    As illustrated in the FTC, it appears that through FY02 $8.0 M of the budgeted $15.5 M in contingency funding has
     been liquidated. These funds were used for demolition and restoration change orders and art storage costs beyond contract
     amounts and represent 52% of the total contingency funding for the project as reported in the OMB 300 document.
§    The demolition and restoration projects are over budget. The variance column indicates the variance between the
     recently reported OMB 300 budget and the actual or expected forecast-to-complete cost and this variance is to be understood
     as project contingency. Actual variances for the demolition and restoration projects that amount to $5.5 M represent 30% of
     the obligated $18.5 M construction cost for these contracts. The $5.5 M in variances for these contracts account for 68% of
     the contingency funding used to date (the $8.0 M to cover these two contracts, and art storage costs).
§    There is limited management and reporting of the contingency usage. There does not appear to be monitoring of
     contingency draw downs against percentage completion. While 52% of the contingency funding appears to be liquidated,
     only 30% ($48.6 M divided by $166.0 M) of the total project costs have been obligated. The use of contingency funding for the
     two existing contracts is not clearly documented.
§    There is a risk that there will be limited contingency funding remaining to realistically manage construction change
     orders on the PPR project and the Cost to Completion project. The $8.6 M left in the contingency represents only 7.9% of
     the remaining project cost, and is set aside for a major construction project that has yet to commence.




20                    Presentation Title | Confidential   | 31-Mar-03 |                                        © Copyright IBM Corporation 2002
                    Business Consulting Services

III. Project Management –
B. Cost Control (continued)
Suggested Improvements/ Best Practices – Contingency Management
§    Actively monitor contingency spending. Contingency usage is expected, but the proportion of that usage compared to the
     percent complete is a measure of current project financial performance. Significant allocation of contingency early in a project
     may be a signal of design or construction issues and indicate a potential budget overrun.
§    Actively manage contingency funding by major category. Managing and reporting on multiple contingency categories, as
     illustrated below, provides a clearer picture of project cost performance. Liquidation of specific contingency funding may
     indicate project areas that require further attention.


                       Figure 6 – Contingency Budget Categories
                       §     This figure outlines four distinct and separate contingency sub-funds that can assist
                             the Smithsonian project teams with contingency management on future projects.


                                    Illustrative Contingency Budget Categories
                           Make use of separate contingency pots to ease project monitoring and establish
                           contingency allocation guidelines.
                             § Soft Costs - an allowance used during the design phase to fund
                               supplemental work carried out by the design team as a result of unforeseen
                               circumstances.
                             § Construction - allowance for change orders to the construction contract due
                               to unforeseen field conditions and interference issues that could not have
                               been reasonably anticipated.
                             § Owner - amount is reserved for use by Smithsonian to increase project scope,
                               or modify a project’s function beyond what was approved in the baseline
                               budget.
                             § Market - an allowance used to buffer the project against cost increases due to
                               adverse market conditions or expected project delays.


21                    Presentation Title | Confidential   | 31-Mar-03 |                                              © Copyright IBM Corporation 2002
                 Business Consulting Services

III. Project Management –
B. Cost Control (continued)
Recommended Action Steps – Contingency Management
3.   Monitor contingency usage against percent completion.
      §    OFEO should consider monitoring contingency spending against the percent complete to ensure potential budget
           overruns be identified early in the project to take appropriate management actions.
      §    The outcome should be a Key Performance Indicator (KPI) to measure the current financial health of a project and
           the effectiveness of project management oversight.
      §     This is a “high priority” – a high impact/low resource action.

4.   Manage separate budgets and contingencies for each individual project contract.
      §     OFEO and the Museums together should consider developing separate budgets for each project contract to
            ensure a better control at the project level and increase budget accountability.
      §     The outcome should be separate project budget for each contract with the associated soft costs and
            contingencies.
      §     This is a “quick hit” – a low impact/low resource action.




22                  Presentation Title | Confidential   | 31-Mar-03 |                                      © Copyright IBM Corporation 2002
                    Business Consulting Services

III. Project Management –
C. Schedule Control
There is risk that without receiving 100% of the requested annual federal funding as outlined in the OMB 300, the
projected July 2006 re-opening date may be unattainable. There is limited management of a master project
schedule by the Museums and OFEO that coordinates construction activities and critical non-construction
activities necessary to meet the project July 2006 re-opening date.
Findings
§    The project schedule is based solely upon receiving 100% of the requested annual federal funding. There does not
     appear to be a contingency plan or financial commitment on behalf of the Smithsonian for meeting the July 4, 2006 re-opening
     date should the annual federal funding appropriations be less than requested. Additionally, should the July 4, 2006 date be
     delayed due to annual federal funding appropriations, project costs will likely increase due re-phasing of construction activities
     to match annual appropriations.
§    A master project schedule that coordinates construction and non-construction activities is currently being developed.
     While recent attempts to organize a team to set out all the tasks and timeframes for the completion of the POB project have
     been made, a formal document showing all construction and non-construction activities is yet to be developed.
§    Based upon a high level review of the project construction schedule, there may be insufficient time between
     construction completion and the July 4, 2006 re-opening date to allow for museum exhibition construction, art
     installation, and operational training. The October 2002 project schedule in the Monthly Issues Report outlines the following
     “early finish” activities and dates:
       §     Courtyard Enclosure – March 10, 2006. This enclosure project is yet to be designed, estimated, or authorized.
       §     Basement – March 21, 2006.
       §     Third and Fourth Floors, South – March 9, 2006.
     These construction activities have impact on the final occupancy certification of the facility and may impact final temperature
     and humidity control requirements. The early finish delivery of these construction activities is approximately fourteen weeks
     prior to the planned re-opening.
§    Baseline and progress schedules are not cost loaded. It is expected that a project of this magnitude would have a cost
     loaded schedule allowing the Smithsonian to manage cash flow requirements and cost impact of changes to projected draw
     downs. With a cost loaded schedule cash flow projections can be maintained on a monthly basis and monitoring against
     projected draw downs better managed.
§    Progress schedules do not contain the baselines of the original and previous schedules. With no time reference it is
     difficult to assess field performance with the established schedule and identify activities that require recovery actions.
§    Progress schedules do not contain completed activities. It is expected that progress schedules report on all project related
     activities including completed activities and percent-complete of active activities.

23                    Presentation Title | Confidential   | 31-Mar-03 |                                           © Copyright IBM Corporation 2002
                  Business Consulting Services

III. Project Management –
C. Schedule Control (continued)
Findings (continued)
§    Contractors fail to comply with certain contract reporting requirements. While the contract specifications for
     Construction Progress Documentation contain specific reporting requirements such as CPM reports, it appears that
     construction contractors fail to comply with those requirements.


Suggested Improvements / Best Practices
§    Consider ensuring full compliance of contract terms and conditions. The construction COTR should enforce existing
     contract clauses and ensure that construction contractors fully comply with progress reporting requirements.
§    Consider requiring construction contractors to provide cost loaded progress schedules to ensure that cash flow
     requirements are met and funding is properly controlled.
§    Consider requiring planned vs. actual construction project schedules from the contractor. The General Conditions
     of the PPR Project does not explicitly require this schedule submittal.


Recommended Action Steps
5.   Increase the responsibility of the contractor in regard to schedule reporting.
     §    Consider requiring the contractor to provide planned vs. actual construction project schedules, and cost loaded
          progress schedules.
     §    The outcome should be contract language that clearly requires planned vs. actual schedules and cost loaded
          progress schedules from the contractor.
     §    This is a “quick hit” – a low impact/low resource action.


6.   Increase construction oversight of schedule reporting.
     §    Consider requiring the contractor to provide all construction progress documents in compliance with the
          construction contract to ensure timely and accurate management decisions.
     §    This is a “high priority” – a high impact/low resource action.


24                  Presentation Title | Confidential   | 31-Mar-03 |                                        © Copyright IBM Corporation 2002
                    Business Consulting Services

III. Project Management –
D. Client Management
OFEO’s project management team is generally responsive to the construction project requirements of the
National Portrait Gallery and the American Art Museum; however, within the Smithsonian there is limited
overarching project management of non-construction related project requirements that take into account other
Smithsonian constituencies.
Findings
§    The addition of a POB project Manager outside OFEO has been beneficial to the museums. This position serves as
     “owner representative” to the Museums and single point of contact, attending all key meetings, and communicating project
     status and outstanding issues to the museum directors.
§    The architect of the POB project appears to have multiple clients. As COTR of the A/E contract, OFEO is clearly the
     client of the architect, and is responsible for the delivery of the POB project. However, because of the programmatic input and
     the museums’ involvement in design issues, the architect may also see the Museums as clients. The control of the architect
     requires further attention at the Oversight Committee level.
§    The single OFEO Project Executive position may be insufficient to manage the successful delivery of the POB
     project. The OFEO Project Executive position is responsible for delivering the construction project on time and on budget,
     and OFEO is well equipped to support this role to this end. However, the POB is a complex project which includes multiple
     clients, a grand re-opening of two museums, and private donations, in addition to the construction restoration of the facility. It
     may require a higher level of oversight beyond the Project Executive role, focusing on all Smithsonian constituencies, to
     ensure a successful delivery to the entire Smithsonian community.
Recommended Action Steps
7.    Ensure that the A/E receive instructions only from OFEO.
      §     Consider communicating to all project stakeholders that all design requests should be addressed to OFEO and
            that no direct instructions should be given to the A/E.
      §     Consider informing the A/E that all requests not issued by OFEO should be declined.
      §     This is a “quick hit” – a low impact/low resource action.


8.    Establish a higher level of project oversight to ensure all Smithsonian project issues are addressed and all
      Smithsonian stakeholder input is considered.
      §     This is a “high priority” – a high impact/low resource action.

25                     Presentation Title | Confidential   | 31-Mar-03 |                                           © Copyright IBM Corporation 2002
                   Business Consulting Services

III. Project Management –
E. Design Reviews
Project stakeholders are provided the opportunity to review the project documents through a formal design
review process known as the SD 410 process.


Findings
§    The importance of the design review process is recognized. The Smithsonian has instituted a formal process, known as
     the SD 410 process, that obtains inputs from all project stakeholders during the design phase through a user-friendly web-
     based system (eMarc) and ensures that the design documents are fully analyzed prior to authorization for bidding.
§    Many key elements of a good design review process are followed. The SD 410 process contains many industry best
     practices elements such as mandatory review periods at major key design milestones, review comments tracking using a
     web-based system and a record of issues established.
§    There is a formalized process in place to ensure that all design review comments are considered by the design team.
     The A/E firm is contracted to respond to each and every design review comment. However, the process ensuring that
     drawings have been modified accordingly and changes incorporate into revised design documents is not documented.
§    Constructibility reviews are performed. The construction management team is involved in the design review process and
     provides comments on issues related to construction feasibility.

Suggested Improvements/ Best Practices
§    Continue utilizing design review conferences when applicable. To improve the speed of design reviews, continue to
     schedule one-day design review conferences to gather all stakeholder comments.
§    Schedule design review time into the CM project schedule. Design review time should be made part of the critical path to
     highlight its importance to the project team.


Recommended Action Steps
§     There are no specific action steps to consider.




26                    Presentation Title | Confidential   | 31-Mar-03 |                                      © Copyright IBM Corporation 2002
                   Business Consulting Services

III. Project Management –
F. Change Order Management
There are many key elements of a solid change order review process are in place; however, the process may
benefit from an ongoing construction audit program.

Findings
§    Independent estimates of change order prices are performed. The process of producing independent cost estimates is
     recognized as critical to the change order review process. Independent cost estimates are produced by the CM firm to check
     pricing and scope on change order work. They are also used during the negotiating process with the contractor.
§    There is a formalized process for change order negotiation. Change orders are negotiated with the contractor with the
     support of the CM firm that has prepared the independent estimate. As a result, a pre-negotiation memorandum is issued by
     the Office of Engineering and Construction authorizing the work to commence in the field.
§    Change orders are authorized before a formal contract modification is issued by O-Con. A pre-negotiation sheet that
     contains the negotiated prices agreed upon by the contractor is used in-lieu of a formal contract amendment to authorize the
     work in the field.
§    Reasons for changes are tracked. The underlying reasons for change orders, such as unknown conditions, client request, SI
     requirements, and design deficiencies are tracked. However, the associated cost breakdown by reason code is not recorded.
§    The change order format includes important elements. Important information such as reason code classification, work
     description, and cumulative amount of contract modifications is included in the change order package. However, identification
     of funding source and funding availability are not recorded.
§    The A/E does not appear to be held accountable for design deficiencies. While design deficiencies for change orders are
     tracked, it is not clear to what extent designers are held accountable for design issues.




27                    Presentation Title | Confidential   | 31-Mar-03 |                                       © Copyright IBM Corporation 2002
                    Business Consulting Services

III. Project Management –
F. Change Order Management (continued)
Suggested Improvements / Best Practices
§    OFEO should consider modifying the change order format to include funding information. Funding verification should
     be recognized as critical to the change order review process. Identification of funding source as well as funding availability
     should be recorded on each change order.
§    The Smithsonian should consider developing a procedure for initiating contract modifications. The number of change
     orders or a dollar amount threshold should be pre-determined for initiating a contract modification, to support a greater level of
     visibility into the financial situation of the project.
§    The Smithsonian should consider developing a methodology for holding the A/E accountable for design issues. While
     it is recognized that financial charges for design deficiencies to the A/E need to be strategically applied, the Smithsonian could
     save costs by requiring designers to, at the very least, develop a remedy free of charge, and in more severe instances
     reimburse the Smithsonian for direct cost of rework. An in-depth contract review of the A/E contract would be beneficial to
     determine the extent that this is possible.
§    There is no formalized process to audit construction projects. While the Office of the Inspector General has recently
     started to review and audit construction projects, there is no internal guideline tailored to the specific requirements of a
     construction project.

Recommended Action Steps
9.    Establish a construction audit program tailored to the specific needs of construction projects.
      §     The Smithsonian should consider developing procedures to conduct periodic reviews of transactions related to
            construction activity. Those procedures should provide the basic framework necessary to meet specific audit
            objectives established for the project. For example, specific construction audit program objectives could be:
              §     Conducting ongoing pricing reviews of change orders to ensure that change orders are priced in
                    accordance with the contract documents and that deficiencies do not exist in the pricing methodologies
              §     Periodically reconciling project expenditures to ensure that discrepancies do not exist between the
                    contract billings and the actual payments
      §     This is a “quick hit” – a low impact/low resource action.


28                     Presentation Title | Confidential   | 31-Mar-03 |                                           © Copyright IBM Corporation 2002
                   Business Consulting Services

III. Project Management –
G. Invoice and Fund Control
The invoice and fund control processes are effectively managed by OFEO and O-Con personnel.


Findings
§    A/E invoices are reviewed by the Design Manager. The Design Manager is responsible for reviewing the A/E invoices and
     makes final recommendation for payment to O-Con. A copy is also sent to the Finance Department.
§    Contractor pay applications are reviewed by the Resident Engineer. The Resident Engineer is responsible for reviewing
     the contractor pay applications that are required by contract to be submitted on a monthly basis. After the review of the pay
     application and verification of funding availability through the financial system PFITS recommendation for payment to O-Con is
     formulated.
§    Invoices are processed through the Office of Contracting. The A/E invoices and contractor pay applications are submitted
     to O-Con for payment after appropriate reviews.
§    The POB project fund is managed by the Project Manager. The Project Manager is responsible for managing the project
     funding. The Resident Engineer has no control over the funding. However, it is the Resident Engineer that requests additional
     funding when the project has no contingency left. The request is sent to the project manager and the Director of Project
     management for review and subsequent approval.


Suggested Improvements/ Best Practices
§    There are no specific suggestions for improvement.



Recommended Action Steps
§    There are no specific action steps to consider.




29                    Presentation Title | Confidential   | 31-Mar-03 |                                        © Copyright IBM Corporation 2002
                   Business Consulting Services

III. Project Management –
H. Filing and Document Control
The existing filing system is efficient and the Smithsonian is considering using an electronic system to enhance
the filing and document control process.

 Findings
 •   Electronic filing is currently not is use, but the Smithsonian is considering archiving electronic documents using
     an electronic format. Electronic documents such as emails and attachments would be made part of the permanent record
     using an electronic format.
 •   Project documents are kept in different places during the project. Project documents are available for review and are
     filed in a consistent manner, which facilitates transparency and audit efforts. During the project, each division involved with
     the project such as design, construction, and project management keeps its own set of documents.
 •   A full-time person is dedicated to the archiving system. At the end of a project, the project documents are sent to one
     person that is in charge of organizing and archiving the files into a filling cabinet kept in OFEO.
 Suggested Improvements / Best Practices
 §   Establish process for scanning all documents for electronic filing and distribution. Electronically scan all paper
     documents to shorten communication cycles for information by transmitting documents online instead of using traditional
     mail, fax or hand-delivery.
     § PDF is a universal file format that preserves all the fonts, formatting, graphics, and color of any source document,
       regardless of the application and platform used to create a document. PDF files are compact and can be shared, viewed,
       navigated, and printed exactly as intended. PDF features include - hyper-links, thumbnails, bookmarks, and annotations
       seen as electronic “Post-Its.”
 §   Alternatively, implement a web-based tool to manage filing and documentation management system. Ensure that
     all documents and communications are logged and accessed in a Web-site, providing a central repository and tracking tool
     for all electronic documents (RFIs, submittals, change orders, meeting minutes, logs). All secured and cleared
     stakeholders can access site and documents 24/7.
 Recommended Action Steps
 §   There are no specific action steps to consider.

30                   Presentation Title | Confidential   | 31-Mar-03 |                                            © Copyright IBM Corporation 2002
                   Business Consulting Services

III. Project Management –
I. Quality Assurance/Quality Control (QA/QC) Program
The QA/QC program contains good quality control elements such as contractor’s quality control plan submitted
prior to starting construction and regular on-site inspections.


Findings
§    The Contractor provides the Quality Control Plan. The Contractor holds the responsibility to submit the project quality
     control plan prior to start of the construction operations.
§    The Construction Management division receives and review the Contractor’s QC program. As a part of the preliminary
     submission system the CM division reviews the QC plan provided by the contractor to verify that the contractor complies with
     the contract documents.
§    The review of actual work completed for Payment Applications is performed in the field by the COTR for construction.
     The COTR for construction, with the support of the CM firm, conducts on-site inspections of work-in-place to determine whether
     percent complete is reasonable and ensure that the contractor’s request for payment reflects actual site conditions.
§    The COTR for construction has oversight responsibility for contract compliance. The COTR for construction is
     responsible for determining that the contract performs in accordance with all contract provisions. However, the COTR has no
     authority to render a decision on an issue that cannot be settled by mutual agreement, this being a responsibility of the
     Contracting Officer.

Suggested Improvements / Best Practices
§    There are no specific suggestions to consider.


Recommended Action Steps
§    There are no specific action steps to consider.




31                    Presentation Title | Confidential   | 31-Mar-03 |                                        © Copyright IBM Corporation 2002
                    Business Consulting Services

IV. Organization –
A. Project Resources
While the framework for project management within OFEO is considered a best practice, planned project
management staffing levels for the POB may be inadequate to fully execute the oversight activities of the
remaining work.

Findings
§    There has been several Project Executives for the POB project over the past two years. Since William Thomas retired
     in January 2001 the position of Project Executive (PE) has been filled by three different people. In addition, in each instance
     the person in charge of overseeing the POB project was not fully dedicated to the project, except for the new PE that has
     recently been hired. These transitions happened at critical times for the project when the construction started and when the
     design was being finalized.
§    While the Project Executive is dedicated full time to the POB, the Project Manager has other responsibilities. The
     current Project Manager (PM) has not been able to dedicate more than 60% of his time to the POB project, as he was heavily
     involved with the renovation of the Victor Building.
§    A new project structure appears to reduce dedicated Project Management resources. A new project structure calls for
     the removal of the current PM and the take over of all project management activities by the PE. With the Physical Plant
     Renewal (PPR) project yet to be awarded, the reduction in project management oversight may be ill-timed.
§    Resources allocated to the field office are planned to be significantly increased. The Resident Engineer office that
     currently has only one person will be supplemented by new resources. The plan calls for the Resident Engineer to be
     supported by a team of quality control inspectors and an engineering support team for cost estimating. Also, one of the
     current Design Managers is to be transferred to the field when the construction of the PPR project starts, expanding the field
     office to 6 FTEs.
§    The growth in OFEO’s operating budget has not kept pace with the growth of the capital budget. It appears that
     staffing levels have remained relatively constant while the capital spending has increased from $25 million in FY 2001 to $87
     million in FY 2003.
§    A construction management firm has been hired to provide support services. The CM firm acts as staff extension and
     provides all support services the COTR for requires to execute the construction contracts. These services include scheduling,
     cost estimating, change order management, field inspection, reporting, and administrative services.




32                    Presentation Title | Confidential   | 31-Mar-03 |                                         © Copyright IBM Corporation 2002
                     Business Consulting Services

IV. Organization –
A. Project Resources (continued)
Findings (continued)
§     OFEO’s project management organization is considered an industry best practice. The industry trend for project
      management is a “cradle to grave” approach that recognizes that individual projects may require varying levels of internal and
      external support, as well as varying levels of internal functional expertise.

Suggested Improvements/ Best Practices
§     OFEO should consider additional staffing as current staffing levels may be inadequate. Capital project management
      oversight manages the risks attendant with the design and construction of projects, and ensures the project best serves the
      Smithsonian’s mission and achieves cost, schedule, and performance goals. There may not currently be sufficient resources to
      fully develop and execute the many project management oversight activities required throughout the project lifecycle. While
      OFEO plans on adding staff, these resources are not available now to fully develop and finalize the project management
      oversight process.


Recommended Action Steps
10.    Evaluate the current relationships between planned capital expenditures and operating budget to identify project
       management resource requirements over the next five years.
       §     OFEO should consider the proper relationship between the total annual cost of project management in relation to
             the total annual capital budget. It should be determined if capital project budgets should share some of the project
             management burden, considering that there may also be future non-OFEO project management requirements for
             large capital projects.
       §     The outcome should be a forward looking staffing plan that outlines the increasing project management
             requirements of the increasing capital budget.
       §     This is a “high priority” – a high impact/low resource action.




33                     Presentation Title | Confidential   | 31-Mar-03 |                                          © Copyright IBM Corporation 2002
                     Business Consulting Services

IV. Organization –
B. Policies and Procedures
The recently published Facilities Project Management Handbook will serve as an excellent source of information
to project participants on project roles, approval processes, and performance measurement.

Findings
§     The Smithsonian has recently published the Facilities Project Management Handbook. This new procedures and
      guidelines manual replaces a construction guidelines manual last revised in 1995.
§     The Facilities Project Management Handbook may be considered an industry best practice. Based upon the review of
      numerous policies and procedure manuals, the OFEO manual may be considered industry best practice due to its
      thoroughness and attention to roles and responsibilities during project execution.
Suggested Improvements/ Best Practices
§     Continue to refine the Facilities Project Management Handbook. While “best-in-class,” there are opportunities to further
      expand, clarify, and modify some areas of the Handbook to improve the management of the POB project and future projects.
      These include:
        §  Budgetary and Execution Level Financial Oversight and Contingency Management. The Handbook does not
           outline budget and execution level financial oversight. There is limited documentation on budget tracking, contingency
           usage, and forecast-to-complete reports. Forecast-to-complete reports maintain the current status of planned versus
           actual expenditures, and forecasts a total cost of the project at completion.
        §  Change orders. The Handbook outlines a relatively clear process for submitting changes. However, several items
           could be added, including the specific review responsibilities of each change order reviewer as to entitlement (within or
           out of scope), breakdown of costs by reason codes, and funding source on each change proposal.

Recommended Action Steps
11.    Continue to monitor the development of the new Facilities Project Management Handbook and ensure it is
       implemented on the remainder of the POB project.
         §     The major benefits of documented policies and procedures include the communication of project standards to new
               project team members, control processes for audit compliance, and communication to senior management on
               project activities. OFEO has written a strong Handbook – ensuring it is followed by project participants is
               paramount to its overall success.
         §     This is a “High Priority” – a high impact/low resource action.

34                     Presentation Title | Confidential   | 31-Mar-03 |                                         © Copyright IBM Corporation 2002
                   Business Consulting Services

V. Project Accounting and Technology –
A. Cost Tracking
The existing PFITS cost accounting system is effective in tracking the POB project execution costs. Further
creation of standardized reports and the planned integration of disparate budget and execution systems will
improve overall project management for the POB project and future projects.
Findings
§    The Smithsonian’s accounting system has recently been updated to Peoplesoft. The previous system, known as the
     Smithsonian Financial System (SFS), had limited project management capabilities. As a result, OFEO, like several other
     Smithsonian internal units, has created and maintained a proprietary accounting system, known as the Project Financial
     Information Tracking System (PFITS), which OFEO’s Project Managers and Project Executives use to keep track of project
     costs.
§    Reconciliation is required to keep the systems updated. The PFITS system is totally separate from the official Smithsonian
     system and manual transfer of data is required to maintain current data in both systems.
§    PFITS currently has limited capabilities in tracking key construction project activities. The ability to monitor meaningful
     construction data in a consistent, uniform, and transparent fashion is limited. Key project information to be tracked includes
     details about baselines, expected cash flows, estimates at completion, pending changes, claims and performance indicators, in
     addition to the accounting reports based on actual payments. One step to address this issue - the ability for PFITS to link to
     MSProject files - is currently being investigated by the PFITS team.
§    A limited number of standard reports have been requested and created. With Reportwriter, PFITS has untapped potential
     to create standardized management reports as the demand for project management reports is identified. Ad-hoc reporting to
     address specific requests for project information is often completed in Excel spreadsheets.
§    There is limited training documentation developed to ensure the proper use of PFITS. While the PFITS system has been
     in use for many years, no training manual has been developed, which may impact the ability of new project management staff
     to gain knowledge of the system. In addition, the system is highly dependent on the knowledge of a small number of staff who
     are responsible for both maintaining the system and entering the budget figures.




35                    Presentation Title | Confidential   | 31-Mar-03 |                                        © Copyright IBM Corporation 2002
                      Business Consulting Services

V. Project Accounting and Technology –
A. Cost Tracking (continued)
Suggested Improvements / Best Practices
§     Create additional standardized project management reports. As applicable, Project Executives and Project Managers
      should consider replacing ad-hoc excel spreadsheet reports with standardized PFITS reports to ensure higher levels of data
      integrity and information dissemination.
§     Integrate disparate systems for management reporting and for tracking all project budgets and project execution
      costs. An owner’s cost accounting processes (and systems) should incorporate, record and report all budgets and all costs
      incurred in the course of a project. Specifically, the processes should capture the following four types of data within each
      level of the work breakdown.

      Figure 7 – Illustrative Work Breakdown Structure for Cost Tracking

     Budget – the baseline (as approved by the fund-                         Commitments – contracted financial dealings made on
     appropriating authority) against which costs are measured.              behalf of OFEO to outside parties. Commitments include
     Specific budget data to track include:                                  originally contracted amounts and contract amendment
        §   original budget line item amounts                                amounts:
        §   revisions to line item amounts                                      §   base contract amounts
        §   line item descriptions                                              §   executed change order amounts
        §   approval dates                                                      §   dates of execution of commitments and descriptions
        §   budget document reference numbers                                   §   commitment document reference numbers
        §   funding sources                                                     §   commitment types (reason codes)

     Forecasts – anticipated commitments required to complete                Payments – payments are expenditures incurred against
     the budgeted work-scope. Forecasts should be made                       agreed commitments. Specific payment data to track
     independently of current project funding, and should not                include:
     therefore simply reflect remaining budget balances. Specific               §   invoice reference number and description of work
     forecast data to track include:                                            §   invoice work date
        §   pending commitment amounts                                          §   payment amount against base contract
        §   not yet pending commitment amounts                                  §   payment amount against change orders
        §   forecast descriptions (explanation for making forecast)             §   retainage amount
        §   document reference for forecast (if a pending change)               §   net payment amount
        §   forecast commitment types (reason codes)                            §   payment date



36                       Presentation Title | Confidential   | 31-Mar-03 |                                                © Copyright IBM Corporation 2002
                  Business Consulting Services

V. Project Accounting and Technology –
A. Cost Tracking (continued)
Recommended Action Steps

12.   Study cost tracking requirements of future programs and the ability of existing systems to meet these
      requirements.
      §    Using existing system reports and data accessibility as baselines, consider outlining cost tracking work
           breakdown structure, output requirements, and assess the feasibility of updating existing systems.
      §    The outcome should be detailed option plans for cost tracking system based upon specific cost tracking and
           reporting requirements and the assessment of the current system environment.
      §    This is a “core challenge” – a high impact/high resource action. Adequate cost tracking and reporting for the
           active management of project costs is imperative for successful program delivery. The Smithsonian should
           outline what is desired from a cost tracking system, and assess the current environment to see if it can meet
           these needs. New system implementations are costly endeavors that come with high risks and should only be
           undertaken if the current environment can not be updated.




37                   Presentation Title | Confidential   | 31-Mar-03 |                                         © Copyright IBM Corporation 2002
                   Business Consulting Services

V. Project Accounting and Technology –
B. Management Reporting
There are limited financial management reports that highlight the health of the POB project in terms of
performance metrics, planned vs. actual costs, and schedule updates. Further investigation into key
performance indicators and project reporting templates will benefit the management of the POB project.

Findings
§    Construction progress reports are issued on a monthly basis. The CM firm is required by contract to report on
     construction progress and a management level report is extracted from it. This report contains information on safety,
     schedule, funding and critical issues.
§    There is limited financial and change management information. The monthly construction report provides limited cost
     information (original budget, current budget, cost at completion estimates, payments and retainage) and change management
     information (RFIs, change orders and other pending changes), although tracked in a separate system, is not reported.
§    Reports to senior management do not provide adequate visibility into the POB project. While reports to senior
     management exist, they fail to adequately report on project status. Budget information and critical issues for management
     action are not communicated.
§    Several key performance indicators (KPI) are outlined in the new Handbook, but are not yet actively being managed.
     No KPI reports were reviewed as part of this assessment.




Suggested Improvements / Best Practices
§    Determine what the Smithsonian wants to measure, and what types of reports senior management would like to see.
     The Smithsonian should determine what project performance its want to measure, and why, and incorporate these
     measurements into management reporting templates.
§    Determine who should be responsible for management reporting. Determine which reports should be completed by the
     contractors and which reports should be the Smithsonian’s responsibility.




38                   Presentation Title | Confidential   | 31-Mar-03 |                                      © Copyright IBM Corporation 2002
                     Business Consulting Services

V. Project Accounting and Technology –
B. Management Reporting (continued)
Suggested Improvements / Best Practices (continued)
§    Consider using Earned Value as a management measure. Earned value was developed to help project owners manage
     and contain the cost risks associated with their projects, in particular provide a firm project baseline and accurate financial
     forecasts. The technique is based on three dimensions:
       §   Planned Value, which consists of the authorized work, along with the authorized budget and within the authorized time-
           frame. This forms the project baseline.
       §   Earned Value, which is the authorized work that has been completed
       §   Actual Costs, which are the actual costs incurred to convert the Planned Value into the Earned Value

      Figure 8 –Earned Value Measurements
       § This figure illustrates the objectives and benefits of Earned Value measurements for project owners.

                           Objectives                                            Benefits to Project Owners
        §   Plan all work prior to beginning it                              §   Objective measurement of work accomplished
        §   Measure performance based on an                                      helps develop plans to identify and resolve
            objective set of technical criteria                                  problems at a time when the resolution will be
                                                                                 reasonably inexpensive
        §   Analyze schedule status and projections
            using a time phase Critical Path Method                          §   Provides true cost condition
            network                                                                § Encourages realistic projections of
        §   Analyze the project expenditures in light                                final cost
            of the work accomplished                                               § Enhance accuracy of financial
        §   Quantify technical problems within the                                   forecasts
            context of cost and schedule parameters                          §   Reduces propensity of customer to add
        §   Forecast completion date and final cost                              work without adding budget
        §   Take corrective action                                           §   Fosters management decisions within a
                                                                                 framework of reality
        §   Maintain disciplined control of the
            performance measurement baseline

                                                                                                            Source: Primavera Systems

39                     Presentation Title | Confidential   | 31-Mar-03 |                                               © Copyright IBM Corporation 2002
                     Business Consulting Services

V. Project Accounting and Technology –
B. Management Reporting (continued)
Suggested Improvements / Best Practices (continued)
§    Augment the existing Key Performance Indicators in the Project Management Handbook, and use KPIs to measure the
     success of the project and the effectiveness of the financial and project management controls. See Figure 9 below for
     sample KPI metrics.

        Figure 9 – Sample Key Performance Metrics
        § This figure highlights some of the basic KPI metrics types, the sample metric to
           be used, and the significance of the metric.

        Metric Type        Sample Metric                   Significance
                                                           Scope establishes a programmatic baseline This is useful for tracking baseline of single
        Scope            SF / Activity                     project and in comparing costs of similar projects.

                                           Contingency usage is expected, but the proportion of that usage compared to the percent
        Cost             Contingency Usage complete of a project should be monitored. Significant allocation of contingency early in a
                                           project may be a signal of design or or construction issues and indicate a potential budget
                                           overrun.
                                                           Slippage in a project's milestone dates can be an early warning that the overall project
        Schedule         Milestones                        schedule may not complete in a timely manner. If a project end date is fixed, subsequent
                                                           project phases may need to be compressed to maintain schedule.

                                                           While some cost variance may be expected, large increases may require additional funding
        Program          Planned vs. actual                resources. Excessive differences may be the result of significant project level concerns -
                         spend                             design difficulty, constructability, contractor issues, schedule or scope.

                   Requests for                            If management is not responding to RFIs within a reasonable timeframe it may be an
        Management Information                             indicator that management efforts are inefficient, inadequate or overburdened. In addition,
                                                           the relative number of RFI’s is a good indicator of design quality and change orders.
                                                           Tracking the actual fees as a percentage of project costs will assist in future capital
        Historical       Consultant Fees                   budgeting, and help measure the efficiency of consultants.




40                     Presentation Title | Confidential    | 31-Mar-03 |                                                             © Copyright IBM Corporation 2002
                    Business Consulting Services

V. Project Accounting and Technology –
B. Management Reporting (continued)
Suggested Improvements / Best Practices (continued)
§    Consider creating single page project summaries that identify KPI’s, performance thresholds,
     and status updates. See the Key Performance Indicators Sample Template below.


Figure 10a – Single Page
Summary Report
(continued on next slide)
§ Key Performance Indicators
   (KPI’s) measure, on a
   quantitative basis, the success
   of a project and the
   effectiveness of the project
   team’s management
   processes.
§ Examples of KPIs include:
     § Scope – Ratios of original
        to current.
     § Cost – Estimated vs.
        forecasted, payments vs.
        commitments, ratios of
        Change Orders.
     § Contingency – Ratios of
        contingency to percent
        complete.
     § Schedule – Original dates
        vs. forecasted dates.




41                     Presentation Title | Confidential   | 31-Mar-03 |                            © Copyright IBM Corporation 2002
                    Business Consulting Services

V. Project Accounting and Technology –
B. Management Reporting (continued)
Suggested Improvements / Best Practices (continued)
§    See the Key Performance Indicators Sample Template below.


Figure 10b – Single Page
Summary Report
(continued from previous
slide)

§ Tracking metrics and rolling
  them up into project reporting
  helps elevate key project
  issues so that they can be
  expeditiously managed by
  project staff and scrutinized by
  project executives.
§ Key metrics are monitored on
  a monthly basis and compared
  to previous or target values.
  Performance parameters,
  customizable by senior
  managers, trigger a status
  indicator for each metric (“red”
  = Action Needed, “yellow” =
  Warning, “green” = OK).
  These metrics are further
  rolled up into one status
  indicator per project which is
  shown on the Program
  Summary Report.




42                     Presentation Title | Confidential   | 31-Mar-03 |   © Copyright IBM Corporation 2002
                    Business Consulting Services

V. Project Accounting and Technology –
B. Management Reporting (continued)
Suggested Improvements / Best Practices (continued)
§     Consider creating single page project summaries that identify KPI’s, performance thresholds, and status updates.
      See the “Project on a Page” Report Sample Template below.
                                                                                                                                                                                                            ILL
                                                                                                                                                                                                               US
                    Project Detail                                                                                                                                                                               TR
    Figure 11 –                                                                                                                                                                                                    AT
                    Project: Sample Project #1                                                                                    Project Summary Report                                                             IVE
    Illustrative
    “Project on a                               Key Performance Indicators                                                                                                                                      Status:
                     Indicator Factor                            Original       Current        Ratio                                                    Calculation
    Page” Report      Scope    Program Scope                                                                      Current Program Net SF / Original Program Net SF
                                                                                                                  (Current Net to Gross SF / Original Net to Gross SF) x (Current Closure SF /                  Scope
                      Scope        Building Metrics                                                               Original Closure SF)
                      Budget       #RFI's                                                                         Cumulative RFI's for prior and current periods and % increase
                      Budget       RFI Turnaround Time                                                            Average work days to return response and % change                                             Budget
                      Budget       Change Estimates                                                               Cumulative change estimates issued and % increase
                      Budget       Budget Variance                                                                Current GMP / Approved 100% SD Budget
                                                                                                                                                                                                                Schedule
                     Schedule Critical Activity Ratio                                                             Number of Critical Activities Remaining / Total Number of Activities Remaining
                                                                                                                  (Revised Due Date 100%CD - Design Schedule Start Date) / (Original Due Date
                     Schedule Schedule Variance                                                                   100%CD - Design Schedule Start Date), in working days


                                                                Expenditures: Budgeted and Actual                                                                                            Contingency Usage
                        Approved Budget                                         Costs                                                    Payments                      Contingency       Amount     Allocated    % Allocated   % Last Month
                                                                   Signed                            Cost at        Budget
                      Original        Revised      Contracts      Contracts       Forecasts        Com pletion     Variance        Actual           %                 Design
                         a               b             c               d                e                f              g            h             j                  Market
                                                                                                    [f=c+d+e]      [g=(f-b)/b]                  [j=h/f]               Construction
                                                                                                                                                                      Owner


                                                           Change Order Monitor                                                                                                      Project Funding
                    Cause                                        Approved $      % of GMP          Pending $      % of GMP
                    Unforseen Conditions
                    Owner Requested
                    A/E Errors & Omissions
                    Regulatory Requirements
                    Total


                                                                                                                                 Schedule
                                                                                          Design                                                                                                  Construction
                                   Schematic Design                  Design Development                               Constr uction Documents
                                                                                                                  Actual Due Original Due Actual Due   Actual                                                     Original      Forecast
                                    Original Due    Current      Original Due      Actual          Original Due      Date         Date       Date    Completion         Previous %      Current %                Completion    Completion
                     Star t Date        Date       Completion        Date        Completion        Date 50%CD      50%CD        100%CD     100%CD     100%CD            Complete        Com plete Start Date       Date           Date




43                    Presentation Title | Confidential                     | 31-Mar-03 |                                                                                                           © Copyright IBM Corporation 2002
                  Business Consulting Services

V. Project Accounting and Technology –
B. Management Reporting (continued)
Recommended Action Steps

13.   Study project management reporting requirements. Establish and implement key performance indicators to
      measure the success of current projects and the effectiveness of the Smithsonian’s construction programs.
      §    Using the recommendations as a starting point, consider identifying the types of information the Smithsonian
           wants to manage and what types of reports would be most beneficial to senior management. Outline report
           templates for review, and determine which reports could be delegated to contractors instead of Smithsonian
           personnel.
      §    The outcome should be a reporting responsibility chart and sample formats for senior management reports. The
           outcome should include initial format and thresholds for KPI reporting and a manner in which to capture the
           information.
      §    This is a “high priority” – a high impact/low resource action. Reporting on the health of capital programs
           within the Smithsonian and externally to Congress is critical to successful program delivery.




44                   Presentation Title | Confidential   | 31-Mar-03 |                                        © Copyright IBM Corporation 2002
                   Business Consulting Services

V. Project Accounting and Technology –
B. Management Reporting (continued)
Recommended Action Steps (continued)

14.   Develop Earned Value metrics to help Project Managers determine the schedule and cost positions of their project.
      §    Below are some of the most used Earned Value metrics:
            Figure 12 – Earned Value Metrics

            Term                  Symbol                  Formula             Checklist Actions
                                                             BCWP         Ratio of work accomplished in terms of the total amount of work to
             Percent             % Complete                               do
             Complete                                         BAC

                                                                          Ratio of work accomplished against money expended (work done
             Cost                                            BCWP
                                 CPI                                      for resources expended)
             Performance                                     ACWP
             Index
                                                          BAC – BCWP      Ratio of work remaining against money remaining (efficiency which
             Verification        VF                                       must be achieved to complete the remaining work with the
             Factor                                       EAC – ACWP
                                                                          expected remaining money)

                                                             BCWP         Ratio of work accomplished against what should have been done
             Schedule            SPI
                                                             BCWS         (work done as compared to what should have been done)


                                                                                                BCWS = Budgeted Cost for Work Scheduled
                                                                                                BCWP = Budgeted Cost for Work Performed
                                                                                                ACWP = Actual Cost of Work Performed
                                                                                                BAC = Budget at Completion
      §   This is a “core challenge” – a high impact/high resource action.
                                                                                                EAC = Estimate at Completion

                                                                                                Source: Primavera Systems


45                    Presentation Title | Confidential   | 31-Mar-03 |                                                    © Copyright IBM Corporation 2002
                   Business Consulting Services

V. Project Accounting and Technology –
C. Collaboration Tools
Collaboration tools are not currently being utilized on the POB project, but can provide excellent communication,
document management, and workflow functions to improve overall project management.

Findings
                                                                         Figure 13 – Diagram of Communication and Value of
§ No collaboration tools are used for the POB project.                   Collaboration Tools for Various Types of Projects


Suggested Improvements / Best Practices
§    Use Web-based collaboration tools for all projects. Web-
     based collaboration is a tool allowing project owners and
     construction teams to rapidly set up on-line workspaces to
     communicate a range of project information.

     • All documents and communications are maintained
       and accessed at a central site (e.g. Web-site). The
       Host Provider (ASPs or entities that supply
       software services via the internet) are easy to use
       such that IT managers do not become mired in the
       technical-implementation details.
     • The service links infinite users with architects,
       owners, contractors and project managers to                       80% of Firm Leaders say project web sites are, at least,
       promote design and construction collaboration and                 somewhat effective in improving project management.
       ensure a transparent management process for
       Construction Programs.                                                  Best for Large Projects                        78%
     • Stakeholders/ users operate the service from their                      Valuable for Long-term Projects                66%
       computer, accessing documents or                                        Best for Public Projects                       26%
       communications from links. These links are
       established, designed and agreed upon by the                            * Source: ZweigWhite’s 2001 IT & E-Business Survey
       project team before launching the tool.

46                   Presentation Title | Confidential   | 31-Mar-03 |                                               © Copyright IBM Corporation 2002
                 Business Consulting Services

V. Project Accounting and Technology –
C. Collaboration Tools (continued)
 Suggested Improvements/ Best Practices (continued)
 §   NAVFAC is implementing a web-based collaboration tool for global project management. NAVFAC is developing a
     web-based construction management system that will serve as the global technological backbone for all of NAVFAC’s field
     office processes, with hosting by an Application Service Provider. The functionality of the system includes the establishment
     and overall electronic management of the following processes:
     §    RFI’s and submittals                        §   Schedule integration
     §    Invoice processing                          §   Invoice processing
     §    Constructability reviews                    §   Daily reports
     §    Safety audits and project closeout          §   Project photos

      Figure 14 – Functions and Owner Benefits from Collaboration Tools

            Collaboration Functions                                        Benefits to Project Owners
       Project Management                                               Increase Efficiency
        § Project administration                                          § Sharing Information with key stakeholders
        § Correspondence                                                  § Lowering lead times in critical activities
        § Meeting minutes                                                 § Reducing repetitive and redundant work
        § Schedules                                                     Lower Operational Costs
       Document Management                                                § Streamline Internal/External Processes
        § Working Drawings                                                § Less Paperwork
        § Photos                                                          § Higher Productivity
        § Schedules                                                     Enhance Customer Relationship
       Workflow Management                                                § Providing on-line information
        § Change Orders                                                   § Streamlining the change/approval process
        § Estimating/Budgeting                                            § Automating billing and cost tracking processes
        § Approvals                                                       § Providing value added services



47                  Presentation Title | Confidential   | 31-Mar-03 |                                          © Copyright IBM Corporation 2002
                 Business Consulting Services

V. Project Accounting and Technology –
C. Collaboration Tools (continued)
 Recommended Action Steps
 15. Study the benefits of web-based collaboration on the remaining work and for future programs.
     §   Consider reviewing existing systems in the marketplace, comparing functionality, processes, costs, security, and
         applicability to OFEO programs.
     §   The outcome should be contract language mandating the use of web-based collaboration tools in the next solicitation
         supported by vendor or performance specifications.
     §   This is a “high priority” – a high impact/low resource action.




48                 Presentation Title | Confidential   | 31-Mar-03 |                                         © Copyright IBM Corporation 2002
                   Business Consulting Services

VI. Action Plan
A. Summary of Action Steps
 Summary of Recommended Action Steps

 “High Priority” – High Impact/ Low Resources
 (3)   Cost Control. Monitor contingency usage against percent completion for cost control performance.
 (6)   Schedule Control. Increase construction oversight of schedule reporting for contract compliance.
 (8)   Client Management. Establish a higher level of project oversight to ensure all Smithsonian project issues are addressed
       and all Smithsonian stakeholder input is considered.
 (10) Project Resources. Evaluate the current relationships between planned capital expenditures and operating budget to
      identify project management resource requirements over the next five years.
 (11) Policies and Procedures. Continue to monitor the development of the new Facilities Project Management Handbook and
      ensure it is implemented on the remainder of the POB project.
 (13) Management Reporting. Study project management reporting requirements and key performance indicators.
 (15) Collaboration Tools. Study the benefits of web-based collaboration on the remaining work and for future programs.


 “Quick Hits” – Low Impact/ Low Resources
 (1)   Cost Control. Establish “audit trail” documentation for all changes to the baseline budget.
 (2)   Cost Control. Establish a standardized format for cost estimates that is inclusive of all known costs.
 (4)   Cost Control. Manage separate budgets and contingencies for each individual project contract.
 (5)   Schedule Control. Increase the responsibility of the contractor in regard to schedule reporting.
 (7)   Client Management. Ensure that the A/E receive instructions only from OFEO.
 (9)   Change Order Management. Establish a construction audit program tailored to the specific needs of construction projects.




49                   Presentation Title | Confidential   | 31-Mar-03 |                                          © Copyright IBM Corporation 2002
                  Business Consulting Services

VI. Action Plan
A. Summary of Action Steps (continued)
 Summary of Recommended Action Steps (continued)

 “Core Challenge” – High Impact/ High Resources
 (12) Cost Tracking. Study cost tracking requirements of future programs and the ability of existing systems to meet these
      requirements.
 (14) Management Reporting. Develop Earned Value metrics to help Project Managers determine the schedule and cost
      positions of their project.



 “Low Priority” – Low Impact/ High Resources
 None




50                  Presentation Title | Confidential   | 31-Mar-03 |                                        © Copyright IBM Corporation 2002
                  Business Consulting Services

VII. Appendices –
A. Documents Reviewed


§ Repair, Restoration and Alteration of Facilities Program              § Independent Estimate Review, ANADAC Facilities
  Report, NAPA, dated 7/2001                                              Group, dated 10/1/1998
§ Critical Assessment – dated 9/28/200                                  § 100% Cost Estimate for PPR, Becker & Frondorf, dated
§ POB Master Schedule Update – October 2001                               9/24/2002
§ POB project Chronology                                                § 100% Cost Estimate for PPR, Bovis, dated 9/26/2002
§ Project Organizational Chart                                          § Schematic Design Estimate for Courtyard Auditorium,
§ Monthly Project Report from the project manager                         Bovis, dated 6/15/2001
§ Project reports to senior management including the Director           § 70% Cost Estimate for PPR, Bovis, dated 2/17/2000
  of OFEO and the Oversight Committee                                   § 100% Cost Estimate for Gross Demolition, Becker &
§ Monthly Progress Report from Bovis                                      Frondorf, dated 3/23/2000
§ The Facilities Project Management Handbook – draft dated              § 95% Cost Estimate for Gross Demolition, Bovis, dated
  9/12/2002                                                               2/17/2000
§ Construction Division Procedural Guidelines – Third Printing,         § 100% Cost Estimate for Exterior Stone, Becker &
  dated 9/1995                                                            Frondorf, dated 3/5/2001
§ Capital Asset Plan (Exhibit 300) for Revitalization and               § 70% Cost Estimate for Exterior Stone, Bovis, dated
  Construction for FY 2004 Budget Submission, version 1                   2/17/2000
  dated 9/9/2002                                                        § A/E Contract
§ Project Specifications for the PPR project, dated 8/19/2002           § Construction Contracts
§ Request for Information (RFI) logs for Gross Demolition and           § CM Contract
  Exterior Window projects                                              § Project Funding and Schedule Analysis, Bovis &
§ Contract Modifications for Gross Demolition and Exterior                Hartman-Cox, dated 3/2000
  Window projects                                                       § Cost of Completion Evaluation, Office of Project
§ Project Definition Rating Index (PDRI)                                  Management, dated 10/24/2002




51                  Presentation Title | Confidential   | 31-Mar-03 |                                    © Copyright IBM Corporation 2002
                   Business Consulting Services

VII. Appendices –
B. Interviews Conducted


Office of Facilities Engineering and Operations (OFEO)                   Smithsonian American Art Museum
§ Clair Gill, Director, Office of Facilities Planning and Resources      § Elizabeth Broun, Director
§ Sheryl Kolasinski, Director, Office of Project Management
§ Kenneth Olmsted, Director, Office of Engineering, Design and           National Portrait Gallery
   Construction                                                          § Marc Patcher, Director
§ Steven Butler, Associate Director, Resource Management                 § Steven di Girolamo, POB Project Manager
§ Derek Ross, Assistant Director for Construction Management
                                                                         Office of the Under Secretary for American Museums &
§ Anna Franz, Project Executive                                             National Programs
§ Steven Groh, Project Manager                                           § Anthony McCann, Director of Financial Affairs
§ Sarah Drumming, Resident Engineer
§ Harminder Jolly, Design Manager                                        Office of the Treasurer
§ Joy Jordan, Design Manager                                             § Sudeep Anand, Treasurer
§ Vicky Cundiff, Budget Analyst
                                                                         Office of Planning, Management and Budget
Bovis                                                                    § Bruce Dauer, Director
§ Brian Grove, Project Manager                                           § Kathleen Johnson, Assistant Director for Planning &
                                                                            Management Support




52                   Presentation Title | Confidential   | 31-Mar-03 |                                        © Copyright IBM Corporation 2002
